HHS/OIG, Audit - "Review of Administrative Costs Claimed Under Title IV-E of the Social Security Act by Indiana Youth Advocate for Calendar Year 2000," (A-05-02-00036)
Department
of Health and Human Services
"Review of Administrative Costs Claimed Under Title IV-E of the Social
Security Act by Indiana Youth Advocate for Calendar Year 2000," (A-05-02-00036)
November 26, 2002
Complete Text of Report is available in PDF format
(200 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether administrative costs claimed
on the Indiana Youth Advocate's (IYA) cost report for calendar year (CY) 2000
were reasonable and allowable for reimbursement under the Foster Care Program
(Title IV-E of the Social Security Act).  Our audit disclosed that the
administrative expenditures reported by IYA on its CY 2000 cost report were
reasonable and allowable for reimbursement under Title IV-E of the Social Security
Act.  Therefore, we have no recommendations to report.